No.

IN THE SUPREME COURT OF THE UNITED STATES

WILLARD HALL,
Petitioner
Versus
EDWARD DUSTIN BICKHAM, Warden,
B.B. Rayburn Correctional Center,
Respondent

PROOF OF SERVICE & COMPLIANCE
I, Willard Hall, do swear and declare that on this date, June 2,2021, as required by Supreme
Court Rule 29,1 have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR WRIT OF CERTIORARI on each party to the above proceeding,
and on every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of then and with first-class postage
prepaid.
The names and addresses of those served are as follows:
•

The State Attorney General *s Office,
Livingston Building,
1885 N. 3rdStreet, P.O. 94005
Baton Rouge, Louisiana 70804-9005.

•

Warren Montgomery, St. Tammany Parish, District
Attorney,

27

#

Justice Center 701 North Columbia Street, Covington,
Louisiana 70433.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 2, 2021.

Respectfully Submitted,

Ulm

\d

Willard Hall #595605
Rayburn Correctional Center
27268 Highway 21, North
Angie, Louisiana, 70426-3030

28

